Inu The Supreme Court Of Che Anited States

Case No.:

Haritha Samaranayake, Jere Pikkarainen, Ann-Marie Maatta and Seppo Yla-
Herttuala, Petitioners,

v.
The Honorable Andrei Iancu, in his official capacity as Undersecretary of Commerce
for Intellectual Property and Director of The United States Patent And Trademark

Office, Respondent.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1
I certify that the enclosed Petition for Writ of Certiorari, excluding the parts
exempted by Supreme Court Rule 33.1(d), contains 4,258 words, i.e., not more than
the 9,000 words permitted under Local Rule 33.1(g)(i). I further declare under
penalty of perjury that the foregoing is true and correct.

Executed as of January 4, 2021

 

 

Pharmaceutical Patent Attorneys, LLC
55 Madison Avenue, 4 Floor
Morristown, NJ 07960-7397

(978) 984-6159
Mark.Pohl@LicensingLaw.Net
